CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Bar of this Court
and that on December 20, 2019, I caused a copy of the annexed letter in Mark I.
Sokolow, et al. v. Palestine Liberation Organization, et al. (No. 19-764) on behalf of
Respondents requesting an extension of time to file Respondents’ brief in opposition
to Petitioners’ Petition for a Writ of Certiorari to be served on the counsel for
Petitioners identified below by courier, and caused an electronic version to be
transmitted to the counsel identified below, pursuant to Rule 29 of the Rules of this
Court. All parties required to be served have been served.
Counsel for Petitioners Mark I. Sokolow, et al.:
John Patrick Elwood
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., N.W.
Washington, D.C. 20001
(202) 942-5992
John.elwood@arnoldporter.com
Dated: December 20, 2019

Respectfully submitted,

Squire Patton Boggs (US) LLP
Gassan A. Baloul
Counsel of Record for Respondent
2550 M Street, NW
Washington, DC 20037
(202) 457-6155
gassan.baloul@squirepb.com

